4
|

COQCKLE

2311 Douglas Street :
Omaha, Nebraska 68102-1214 Legal B eis
1-800-225-6964
(402) 342-2831

Fax: (402) 342-4850

No.

KYKO GLOBAL INC. and KYKO GLOBAL GMBH,

Petitioners,

Wa
OMKAR BHONGIR,
Respondent.

CERTIFICATE OF COMPLIANCE

E-Mail Address;
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 6408 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 10th day of September, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

ae NOTARY-State of Nebraska
RENEE J. GOSS
My Comm. Exp. September 5, 2023 *
Notary Public

Affiant

khoo Oudiaw-h, Ghly

40068
